OIG Investigative Reports, Detriot MI., May 06, 2014 - Former Detroit Public School Teacher Sentenced On Fraud And Money Laundering Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT OF MICHIGAN
NEWS
Former Detroit Public School Teacher Sentenced On Fraud And Money Laundering Charges
FOR IMMEDIATE RELEASE
May 06, 2014
A former Detroit Public Schools teacher was sentenced to three years in prison today for her conviction for defrauding DPS, U.S. Attorney Barbara L. McQuade announced today.
McQuade was joined in the announcement by Paul M. Abbate, Special Agent in Charge of the Detroit Division of the Federal Bureau of investigation, Carolyn Weber, Acting Special Agent in Charge, Internal Revenue Service, Criminal Investigation.
U.S. District Judge Julian Abele Cook imposed sentence on Domonique Campbell, 39.  A jury found Campbell guilty of program fraud conspiracy, money laundering conspiracy and tax charges, following a five-week trial in August 2013.
Campbell's mother, Sandra Campbell, 60, a former DPS contract accountant and School Board candidate was sentenced in December, 2013 to 70 months in federal prison for her role in the scheme.
The evidence presented at trial established that between 2004 and 2008, the defendants obtained more than $530,000 from DPS through a fraudulent scheme in which orders were placed with the Campbells’ sham company for books and educational materials that were never provided to the schools.  Sandra Campbell and Domonique Campbell conspired to launder the fraud proceeds and to defraud the Internal Revenue Service by failing to report on their income tax returns the money they fraudulently obtained.
McQuade said, "Anyone who considers defrauding our schools should take note that we are scrutinizing records and conduct, and will prosecute those who steal funds intended to educate our children."
FBI Special Agent in Charge Abbate stated, “In this case, the defendants’ criminal actions amounted to stealing the opportunity for a quality education from our children. Such conduct cannot, and will not, be tolerated. The FBI Detroit Field Office, together with our local, state, and federal partners will continue to battle public corruption and hold those responsible accountable for their actions."
IRS Acting Special Agent in Charge Weber stated, “"Those who profit at the expense of our children and steal from our community will be held accountable for their greedy actions".
The case was investigated by special agents of the FBI, IRS and Department of Education, Office of Inspector General, with the assistance of Detroit Public Schools, Office of Inspector General. The case was investigated and prosecuted by Assistant United States Attorneys J. Michael Buckley and Bruce Judge of the Public Corruption Unit.
Top
Printable view
Last Modified: 06/02/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov